@OCKLE

2311 Douglas Street Le ga l Brie f s E-Mail-Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No. 19-784

UNIVERSITY OF PENNSYLVANIA, et al.,
Petitioners,

ve
JENNIFER SWEDA, et al.,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the REPLY BRIEF FOR THE PETITIONERS in the above entitled

case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

BRIAN T. ORTELERE
MORGAN, LEWIS &

DAVID B. SALMONS
Counsel of Record

BOCKIUS LLP MICHAEL E. KENNEALLY
1701 Market Street MORGAN, LEWIS &
Philadelphia, PA 19103 BOCKIUS LLP

1111 Pennsylvania
CHRISTOPHER J. BORAN Avenue, NW
MATTHEW A. RUSSELL Washington, DC 20004
MORGAN, LEWIS & (202) 739-3000
BOCKIUS LLP david.salmons@
77 West Wacker Drive morganlewis.com

Chicago, IL 60601
Counsel for Petitioners

Subscribed and sworn to before me this 10th day of March, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths,

My Comm. Exp. September 8, 2023

 

A GENERAL HOTARY-State of Hebraska ,
RENEE J, GOSS Konee. J. teas ¢ dee dreary &. Gh
Notary Public

Affiant 39579

 
SERVICE LIST

Jerome J. Schlichter

Michael A. Wolff

Sean E. Soyars

Schlichter Bogard & Denton LLP
100 South Fourth Street, Suite 1200
Saint Louis, MO 63102

(314) 621-6115
jschlichter@uselaws.com
mwolff@uselaws.com
ssoyars@uselaws.com
